CERTIFICATE OF SERVICE
No.

Rene Gosselin,
Petitioner
v.
Commonwealth of Massachusetts
Respondent

I, Theodore Francis Riordan, hereby certify that on February 18, 2021 I
mailed a copy of the Petitioner's Motion to Proceed In Forma Pauperis, a copy of the
Petitioner's Petition for Certiorari, and Appendix to the following counsel of record.
Mailing was accomplished through the United States Postal Service by first class
mail. In addition, I emailed a copy of those documents to said counsel the same day.
As such, all parties required to be served have been served. I am admitted to the
bar of the United States Supreme Court.
Counsel of Record for the Commonwealth of Massachusetts:
Mary Lee, Esq.
Bristol County District Attorney
888 Purchase Street
New Bedford, MA 02740
mary.e.lee2@state.ma.us
508-746-8340

etitiOner Rene Gosselin
Counsel for,P--

Theodore Francis Riordan, Esq.
TRiordan@BatesRiordan.com
BATES & RIORDAN, LLP
5 Beale Street
Quincy, Massachusetts 02170
FAX 617-328-8035
Telephone 617-328-8080
Dated: February 18, 2021

